Certificate of Compliance
1.

The Respondent’s Brief in Opposition to the petition for writ of
certiorari complies with the word limit of Rules 33(1)(h) and
33(2)(b) because the document does not exceed 9,000 words or 40
pages.

2.

This document has been scanned for viruses and is virus-free.
BY: s/ James D. Smith
Proof of Service

Undersigned counsel of record for the Respondent certifies that on
September 11, 2020, copies of the Brief in Opposition to the petition for writ
of certiorari were served on all parties required to be served as follows:
1.

A copy was mailed by United States Postal Service, first class
mail, addressed to the Petitioner’s counsel of record:
Sarah P. Newell
Nebraska Commission on Public Advocacy
140 North 8th Street, Suite 270
Lincoln, NE 68508

2.

An electronic version was also transmitted on the same date to
the above-named Petitioner’s counsel at her email address:
snewell@ncpa.ne.gov

BY: s/ James D. Smith

